IN THE SI]PREME COURT OF THE UNITED STATES
No.

19A-

JaxB LeTunNPR, TREASURER

OF THE STATtr OF KANSAS,

Applicant,
v.

UNITno StatPS OF AMERICA AND ANONNA LEA, TN HER OFFICIAL CAPACITY
AS AUDITOR OF THE StAtN OF ARKANSAS,
Respondents.

CERTIFICATE OF SERVICE
Pursuant to RuIe 29.5 ofthe Rules of this Court, I certify that all parties
required to be served have been served. On February 24,2020,I caused a copy of
an Application for an Extension of Time Within Which To File Petition for a Writ of

Certiorari to the United States Court of Appeals for the Federal Circuit to be served
by first-class mail, postage prepaid, and by electronic mail (as designated) on the

following:
Noel J. Francisco
(supremectbriefs@usdoj. gov)
Solicitor General
Office of the Solicitor General
United States Department
of Justice
950 Pennsylvania Avenue, N.W.
Room 5614
Washington, D.C. 20530-0001
(202) 5r4-22r7
Counsel for Respon den't
Uraited States of America

David H. Thompson
(dthomp son@cooperkirk. com)
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.

Washington, D.C.20036
(202) 220-e600
Counsel for Respondent Andrea Lea,
in her official capacity as Auditor of
the State of Arh,ansas

d C. Frederick
D
Counsel of Record for Applicant

